; i
1

19-637
In The
SUPREME COURT OF THE UNITED STATES

Emma Serna d/b/a
Serna & Associates Construction Co., LLC
Petitioner,
v.
Margette Webster, et al.,
Respondents

On Petition For Writ Of Certiorari
To The United States Court of Appeals
For The Federal Circuit
PETITION FOR REHEARING

Emma Serna d/b/a
Serna & Associates Construction
Co., LLC, Pro Se
P.O. Box 65384
Albuquerque, NM 87193
(505)321-1661

RECEIVED
FEB 2 8 2020

«
1

LIST OF PART MEMBERS
Margette Webster, David Webster,
State of New Mexico, U.S. Judicial Second District Court;
Carl Butkus; Cindy Molina; Alan Malott; Beatrice Brickhouse;
Bobby Jo Walker; Nan Nash; James A. Noel; Joey Moya;
Amy Mayer; Madeline Garcia; Arthur Pepin; Monica Zamora;
Cheryl Ortega; New Mexico Construction Industries;
Pat McMurray; Martha Murillo; Sally Galanter;
Robert “Mike” Unthank; Martin Romero; Amanda Roybal;
Clayton Crowley; Alex Chisholm;Calvin A. Calvert; and John Wells.
Defendants/Respondents

s
!*■

11

TABLE OF CONTENTS

Page
LIST OF PARTY MEMBERS

1

TABLE OF AUTHORITIES

11

STATUTES

m

STATEMENT OF THE CASE................

6

GROUNDS FOR REHEARING...............

2

THIS COURT SHOULD GRANT
REHEARING TO ALERT THE PUBLIC
THAT WE STILL LIVE IN A COUNTY
OF DEMOCRACY.
A. To Clarify That The Arbitration Award
Is Null and Void, and Hearings Would
Be Inconsequential.
B. State Courts Continue to Drift Further
From the Civil and Constitutional
Rights of an Individual
CERTIFICATE OF SERVICE

\

AUTHORITIES
1. Wells v. County of Valencia,
Page 1, 2, 6
1982 NMSC-048, 98 N.M. 3,
644 P.2d 517, N.M. Tort Claims
Act 1983 action.
2. Bonnie Braes Farms, Inc. v.
5, 6
Robinson
598 S.W.2d 765 (1980)
Wrongful filing of lis pendens
Court of Appeals of Kentucky.
3. Beasley v. Wells Fargo Bank, N.A.
1,6
2018 WL 3478882 (6*h Cir July,2018).
Wrongful foreclosure
4. Selby v. Taylor
5, 6
No. 812SC380 May, 1982, 290 S.E.2d
767. Slander of title.
5. La Jolla Group II v. Bruce (2012)
6
California 4th Circuit, 461, 476 [149 3d
716 Defamation, Preventing a sale and
vendibility.
6. Glass v. Gulf Oil Corp. (1970) 12 Cal. App. 5, 6
3d 412, 424. Loss of market value and
disparagement property might have found
a buyer.
7. Cross v. Wells Fargo, case no. CV-20115
00447 AHM. Unjustified & without
privilege the foreclosure was published.

■v

2

8. Shimpones v. Stickney
Docket No. L.A. 12822
Supreme Court of California
En Banc (1934)
Quiet Title on properties and
for damages, fraud.

Page 1, 5

9. Twombly, 550 U.S. at 555
Grounds for entitlement for relief.
Factual allegations must be enough
to raise a right for relief.
10. Iqbal citing 129 S. Ct. (1949)
Slander of title, intentional invasion
of property interest and willful
misrepresentations.

1, 4,5

4,5

11. Feoron v. Fodera, Supreme Court of
5,6
California, Case S.F. No. 6798 Feb., 1915.
Relief was granted alone on Slander of
Title. Quiet title.
12. Alpha v. Omega Development, LP,
4
supra 200 Cal. App. 4th Circuit at p. 664.
Published untrue statements, invasion
of the interest in the vendibility of property.
13. M.F. Farming Co., v. Couch
Distributing Co. (2012 Cal. App.
4th Circuit 180, 198-199
[143 Cal. Rptr. 3d 160]. An actual
deal was hampered by the disparaging
statement & Lis Pendens.

5

3

14. Foster v. Butler, Docket no. L.A. Page 4,5
2929 Citation codes 164 Cal. 623,
130 P.6 March, 1901. Quiet title.
15. Howard v. Schaniel, (1980)
113 Cal. App. 3d 256, 263-264. Causes
direct an immediate pecuniary loss.
Publication without privilege or
justification without regard to its
truthfulness.

4,5

16. Cyr v. McGovran, 2012,
206 Cal. App., 4th district, 645, 651.
Slander of title.

4,5

17. Alpha & Omega Development, LP v.
Whitlock Contracting, Inc. (2011)
200 Cal. Court of appeals 4th district
656, 661. Slander of title, clouds title
of property, filing oflis pendens.

4,5

18. Albertson c. Rabaff, (1956) 46 Cal. 2.d
375, 378-379 [295 P.2d 405].
Slander of title.

4, 5

19. Gudger v. Manton, (1943) 21 Cal. 2.d
537, 543-544, [134 P2.d 217]
Absent of privilege.

3, 5

4
20. Wells v. County of Valencia, (1983)
NMSC-048,98 NM 3, 644 P.2d, 517

P. 4

21. Superior Construction, Inc. v.
Linnerooth
103 N.M. 716, 712 P.2d 1378 (1986)
Wrongful filing, lis pendens,
Slander of title, malice

4

22. Romero v. Otero, 678 F. Supp
1535 (D,N.M. 1987).
Emotional distress, damages.
23. Lujan v. N.M. Dep’t of Transp.
2015-NMCA-005, cert, denied.
Negligence.

2, 4,5

IN THE SUPREME COURT OF THE
UNITED STATES
STATUTES
Page
1. Tort Claims, 41-4-1 through
41-4-27 NMSA 1978
The Tort Claims Act.
2. Federal Civil Rights Act
42 U.S.C. 1983
3. 2006 N.M. Statute Section
48-1A-5
4. 2011 N.M. Statute Section
41-7-1 through 41-7-6
Defamation, Torts Article 7
5. Chapter 13
Slander of Title
6. Federal Statue 671, Ch. 392,
61, July 30 1947.
7. 2006 N.M. Statute Section
16[44-7A-16, 1978].
ATTORNEY PROFESSIONAL
CONDUCT CODE
1. NMRA- 16-804

1,2
1,3
3
2

2

1
1

3

IN THE SUPREME COURT OF THE
UNITED STATES

STATEMENT OF THE CASE

This case presents an important factor, that in arbitration the rules and
procedures are different than in everyday judgments. In arbitration rules,
9 U.S. Code 4 Failure to arbitrate under the contract agreement. A party
aggrieved by alleged failure, neglect or refusal of another to arbitrate under
a written agreement may petition any United States District Court which,
save for such agreement, would have jurisdiction shall proceed according to
the terms of the contract, and this is was set forth on July 30. 1947, Ch. 392,
61 Statue 671. The Petitioner therefore had to bring this matter to federal court.
The Respondent, according to 2006 New Mexico Statutes Section 16[44-7A-16,
1978](6)(b) and award has ninety days for modifications or corrections from the
date it was procured.

In the early part of May, in 2015, the Serna property was transferred into the
Mike R. Serna Irrevocable Trust. After having been in a lawsuit, since 2007,
the court had scheduled a second arbitration, which did not conform with the
contract.

The arbitrator issued an award, to a Margaret Webster, a non-party
member, and a person that does not exist, and against an Emma Serna
d/b/a Serna & Associates, LLC. A company that the petitioner does not
own or is registered in New Mexico.

The arbitration took place on May 23, 2015, and Responder Margette Webster
never made the changes or modifications to the award. Margette Webster has
been exceeding the jurisdiction of the court with this void award, and the award
has no validity. In Rose v. Himely (1808) 4 Cranch 241, 2 L ed 608, South
Carolina. The jurisdiction of a void judgment had no validity, and in Pennoyer v.
Neff (1877) 95 US 714, 24 L ed 565, the Supreme Court. The void award needs and
order that declares the award void, and this void award can be attacked at any
time, and district courts abused their discretion by not vacating the award as
being prospectively inequitable. Id at 722.

In 2015-NMCA-005, cert, denied, 2014-NMCERT-010, Lujan v. N.M. Dep’t of
Transp. The negligence action under this act requires that there be a duty owed
from the defendant to the plaintiff, that based on a standard of reasonable care
under the circumstances, the defendants breached that duty, and that the breach
was a cause in fact, and proximate cause of the plaintiffs damages.

2

An actual deal was hampered by the disparaging statements and the Lis
Pendens, in the 2012 case held in the California Supreme Court, as was
the sale hampered for the Serna Irrevocable Trust, for one of the
beneficiaries. Resulted in loss of sale. In tort actual malice had to happen
unfounded claim of an interest which throws doubt upon its ownership.

Defamation was brought on by Margette and David Webster publishing a
false statement to the interest of another is subject to liability to pecuniary
loss. They knew that the statement is false or acts reckless and disregards
its truth or falsity, causes direct and immediate pecuniary loss. The
Responders never proved that the alleged defamatory statements were never
made with malice,

The lien and lis pendens were filed in the Bernalillo County Clerk’s Office, and
letters from mortgage companies were received that Margette had planned a
foreclosure, on October 21, 2019, unless Serna refinanced the home’s mortgage.

Warrantless search & seize of the premises violated the Fourth Amendment.
The Tenth Circuit Court of Appeals states, the deputies were not entitled to
immunity given by the Fourth Amendment gives Serna the right to be free and
right to be free in one’s home from unreasonable searches and arrests, and from
Webster’s false request.

4

The federal civil rights Act of 42 U.S.C. 1983 gives a Plaintiff the right
to bring an action, for damages, under that act against a government entity
or public employee,

Documents were published and they were unjustified and without privilege,
and Responders do not have a right to foreclose on the subject property
without a valid judgment, and an award that is Void, and to a person that
is not a party member to the cases, and to the Responder that is committing
identity theft.

McDonald v. Mabee, Docket no. 135, Supreme Court of the United States,
citation 243 U.S. 90, 375, Ct 343, 61 L, Validity of Judgment. A Void judgment
does not create any binding obligation. Kalb v. Feuerstein (1940) 308 US 433,
60 S Ct. 343, 84 L ed 370. An order that exceeds the jurisdiction of the court,
is void, or voidable, and can be attacked in any proceeding in any court where
the validity of the judgment comes into issue.

The Petitioner had and has a right to possession, at the time of filing the complaint
the property of the Irrevocable Trust property, and this is essential under the
Statutory law of New Mexico.

State district court’s order to the deputies was not valid, but they acted on it, and
the Petitioner was harmed by their acts. 2006 New Mexico Statutes Section
48* 1A-5 Noni-enforceability of nonconsensual common law liens.

5

IN THE SUPREME COURT OF THE
UNITED STATES

GROUNDS FOR REHEARING

Petition for rehearing of an order denying Certiorari are granted only:
(l) If a petition can show grounds of intervening circumstances of a
substantial or controlling effects. The Petitioner has proven that the
Responders have indeed crossed the threshold of requirements of
negligence actions. A duty from the Respondents was owed to the
Petitioner, and it was based on a standard of reasonable care under the
circumstances, the Respondents breached that duty, and the breach was
Claims Act for emotional distress and daniages and should be the main
factor in this petition for grounds for intervening circumstances of a
substantial or controlling effect, and the injury needs to be redressed, and
The limited waiver of sovereign immunity should not abate or bar this
claim, but should retain its vitality pursuant to the laws of the Constitution,
Amendment One and Fourteenth.

The petition for rehearing under Rule 44 specifies that the conditions for
rehearing shall consist of grounds limited to intervening grounds. The
violation of Statute 42 U.S.C. 1983 is the main force in this petition. The
Petitioner’s rights were secured by “Section 1983”, and the state court keeps
depriving the Petitioner of these rights.

The intervening of rights has harmed the Petitioner, and the state and
federal constitutional rights have been ignored, and set aside without
justification, and injustice has been instilled.

The construction and application of the Federal Tort Act, claims arising
out of interference with contract rights (28 USCS 2680 (h) 92 ALR Fed
1686 where the court discarded the contract agreement. The Tort Act
was created so the government could be sued for tort liability.
Board of Cnty. Comm’rs v. Risk Mgmt. Div. 1995 NMSO046, 120 N.M.
178, 899 P.2d 1132.

Petitioner’s Irrevocable Trust now has a cloud on the title of all its property.
Responder shows malice and a state of mind arising from hatred or ill will,
evidencing a willingness to vex, annoy or injure the Petitioner.

The Respondents, Margette and David Webster published, without priviledge
or justification that they had an award or judgment which was and is false
which caused direct and immediate pecuniary loss.

Respondents published untrue statements, and disparaging , with respect to
the property, they state, “(that the two Websters own the property that the
Serna Irrevocable Trust owns, and would someone be interested in purchasing
the property from them. It is an invasion of the interest in the vendibility of
the property, and complete fraud.
2

An actual deal was hampered by the disparaging statement and the Lis Pendens
that was filed by Respondent’s Margette and David Webster on the Serna
Irrevocable Trust for one of the beneficiaries, which resulted in loss of sale.
In tort law, actual malice had to happen unfounded to claim of an interest
which throws doubt upon its ownership.

Defamation was brought on by Margette and David Webster publishing a false
statement to the interest of another is subject to liability to pecuniary loss.
They knew that the statement was false and/or acts reckless, and disregards its
truth or falsity. Causes direct and immediate pecuniary loss. The Responders
never proved that the alleged defamatory statements were never made with malice.

The federal civil rights Act of 42 U.S.C. 1983 gives a plaintiff the right to bring an
action, for damages, under that act against a government entity or public employee.

Documents were published and they were unjustified and without privilege, and
Responders do not have a right to foreclose on the subject property without a
valid legal] udgment, and an award that is Void, and to a person that is not a party
member to the cases, and to the Responder that is committing identity theft.

3

